NO.
IN THE
UNITED STATES SUPREME COURT
OCTOBER TERM, 2020

IN RE: DANIEL H. JONES,
Petitioner

PETITION FOR AN EXTRAORDINARY WRIT TO THE
KNOXVILLE COURT OF APPEALS
FOR THE EASTERN DIVISION
AT KNOXVILLE. TENNESSEE
E2017-02026-CCA-R3-CQ
TO; THE STATE ATTORNEY GENERAL OF TENNESSEE;

NOTIFICATION AND PROOF OF SERVICE
r, pro se, do swear or declare that on this date May , 2020, as required by
Supreme Court Rule 29, I have served the enclosed Motion For Leave To
Proceed in Forma Pauperis and Petition for Extraordinary Writ on each party to
I, Daniel H. Jones, petitioner the above proceeding, or that party’s
counsel, and on every other person required to be served by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first class postage prepaid, or by delivery to
a third party commercial carrier for delivery within 3 calendar days, who will be as
follows;
Herbert H. Slatery, III
State Attorney General,
Office of the Attorney General,
6th Ave. North, P.O. Box 20207\
Nashville, Tennessee. 37202-020
I declare under penalty of perjury,
on this7^ day of
1^2020.

1regoing is true and correct. Executed

si

Daniel H. Jones, Pettik

* n)
O SE

CERTIFICATION
I certify, that a true and correct copy of the In Forma Pauperis Motion was
mailed this

day of MoW

Supreme Court, located at

2020, to the Clerk of the United States

First Street, N.E. Washington, D.C. 20543, by

depositing it in the U.S. Mail, postage prepaid..
Respectfully submitted,

Daniel H. Jones, w443638, pro se
Turney Center Industrial Complex
1499 R.W. Moore Memorial Hwy.
Only, Tennessee. 37140-4050
C:file/dhj

